K

57

No.

FILED
DEC 0 7 2020

IN THE
SUPREME COURT OF THE UNITED STATES

Andrew Hendricks

— PETITIONER

(Your Name)
vs.

Anthony Annucci, et al.

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

New York State Appellate Division: Third Department
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Andrew Hendricks
(Your Name)

Clinton Corr. Fac., P.O. Box 2002
(Address)

Dannemora, N.Y. 12929
(City, State, Zip Code)—v

■gi

V'

(Phone Number)

i-M

\

Vo

■!

a

3

QUESTION(S) PRESENTED

Before seeking judicial intervention from New York State Supreme/County Court
did I first exhaust all available administrative remedies, in accordance with New York
regulations, federal case law and the Prisoners' Litigation Reform Act?

C-r

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[X] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Anthony Annucci, Commissioner
New York State Dept, of Corr. and Comm. Supervision
1220 Washington Ave., Bldg. 9
Albany, N.Y. 12226
Earl Bell, Superintendent
Clinton Corr. Fac.
P.0. Box 2002Dannemora, N.Y. 12929

u

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS I INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

7

CONCLUSION

8

INDEX TO APPENDICES
APPENDIX A

Memorandum and Order, Appellate Division: Third Dept,
v..Annucci, et al., 179 A.D.3d 1232 (2020)

>

Hendricks

APPENDIX B
Decision, Order & Judgment of Clinton County Court in the matter
of Hendricks v. Annucci, et al.

Order denying rehearing, in the Appellate Div.: Third Dept.
APPENDIX C
Hendricks v. Annucci, et al.
APPENDIX D ■ Order of the New York State Court of Appeals deny leave to appeal.
APPENDIX E

a

nnrurMv r~

ArrciNuiX r

TABLE OF AUTHORITIES CITED

CASES
Ross v. Blake, 136 S.Ct. 1850 (2016)
Booth v. Chumer, 532 U.S. 731 (2001)
Hayes v. Dahlke, 976 F.3d 259 (2020)

PAGE NUMBER
5
5
6

STATUTES AND RULES
Prisoners’ Litigation Reform Act, 42 U.S.C.A. 9 § 1997e
7 NYCRR, part 701 ........................................

OTHER

5
6;

^\

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPSNIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the .petition and is
[ ] reported at
; or,
[ ]. has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[x] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix . A
to the petition and is
[X] reported at 179 A.D.3d 1232 (2020)
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
Clinton County
appears at Appendix B to the petition and is

*1*1^ A

1 VA 1 A V>

a4"

^ UA

x lie Opuixuii. ui uic __

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
1. '

court

to

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[X] For cases from state courts:
The date on which the highest state court decided my case was Jan. 9, 2020
A copy of that decision appears at Appendix A
[X] A timely petition for rehearing was thereafter denied on the following date:
April 6, 2020------------ , and a copy of the order denying rehearing
appears at Appendix c
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______________(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

I

0
5

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Prisoners' Litigation Reform Act, 42 U.S.C.A.,j 1997e

c

3

/

STATEMENT OF THE CASE

My Inmate Grievance Complaint dated November 21, 2017 was filed on December 11, •
2017. I appealed the Inmate Grievance Resolution Committee's (IGRC) denial of my grier
vance to the facility Superintendent, and then the Supreintendent's denial to the Central
Office Review Committee (CORC) on January 24* 2018, filed Fabuary 8, 2018. After the
CORC still had not yet issued a decision on my grievance appeal within 30 calendar days
from receiving it, on April 18, 2018 I filed an.Article 78'Petition in the New York
State Supreme/County Court, Clinton County, asking the court to reverse the constructive
denial of my Inmate Grievance Gomplaint.
Although the CORC did not render- a decision on my grievance appeal within 30
calendar days, nor request an extension of time to decide ray grievance appeal pursuant
to New York Department of Corrections and Community Supervision (D0CCS) regualtions, the
trial court dismissed my Article 78 Petition for failure to exhaust my administrative
remedies because I did not continue to wait, well past the the 30 day time limit for the
CORC to render a decision on my grievance appeal, before I sought judicial intervention
with my Article 78 Petition.
I appealed the trial court's decision to the Appellate Division: Third Dept,
asserting largely, among other things, that I did indeed exhaust all available admini­
strative remedies prior to seeking judicial intervention. The Third Dept, affirmed the
lower court's decision holding that the 30 calendar day time limit for the CORC to
render a decision on a grievance appeal is "directory, not mandatory. Therefore, again,
because I sought judicial intervention before the CORC rendered a decision on my grievance
appeal, I failed to exhaust my administrative remedies.
After the Appellate Division: Third Dept, denied my motion for reargument or, in
the alternative leave to appeal to the New York State Court of Appeals on April 6, 2020,
I sought leave to appeal from the Court of Appeals who denied my request on September 10,
4

.

2020.
The Third Depths holding and decision to affirm the lower court's decision in this
matter is in direct conflict with the holding and decision of this court in the matter of
Ross v. Blake. In Ross this court held, "an inmate is required to exhaust those, but only
those, grievance procedures that are 'capable of use' to obtain 'some relief for the
action complained of.'" (Ross v. Blake, 136 S.Ct. 1850, 1859; citing Booth v. Churner,
532 U.S. 731, 738, 121 S.Ct. 1819; see also Prisoners' Litigation Reform Act, § 101 [a],
42 U.S.C.A., § 1997e[a]). The Ross court held that an administrative remedy is unavail­
able "when prison administrators thwart inmates from taking advantage of a grievance
process through machination, misrepresentation or-intimidation." (Ross, 136 S.Ct. at 1860).
By ignoring my appeal the C0RC could delay my exhaustion indefinetely, making the remedy
"unavailable" by thwarting my attempt to exhaust. I tried to appeal my grievance to the
"next step" after the Superintendent level, but was unable to do so because the C0RC
ignored my grievance appeal until finally issuing a decision on it on May 8, 2019, approx­
imately 15 months after they received my grievance appeal and approximately 13 months
after I sought-ijudicial, intervention.
The Third Dept.'s holding and decision in this matter are also in direct conflict
with this court's holding and decision in Booth v. Churner. . In Booth this court held,
"While the modifier 'available* requires the possibility of some relief for the action
complained of.. •

5 ;

the word 'exhasuted* has a decidedly procedural emphasis.;It makes sense

only in referring to the procedural means, not the particular relief ordered. It would,
for example, be very strange usage to say that a prisoner must 'exhaust'.an administrative
order reassigning an abusive guard before a prisoner could go to court add ask for some­
thing else; or to say (in states that award money damages administratively) that a
prisoner must 'exhaust* his damages award before going to court for more. How would he
'exhaust' a transfer of personnel? Would he have to spend the money to 'exhaust' the
monetary relief given him? It makes no sense to demand that someone exhaust 'such admini­
strative [redress]' as is available; one 'exhausts' processess, not forms of relief, and
5

/

the statute provides that one must.” (Booth v. Churner, 532 U.S. 731, 738 - 739, 121
r

S.Ct. 1819 [2001]). In other words, it would be impossible for me to "exhaust” a decision
from the CORC.
It is undisputed that the CORC did not render a decision on my grievance appeal
within 30 days of receiving it on Febuary 6, 2018 appeal. But the Third Dept, held in
its decision that the 30 day time limit is "directory, not mandatory", and I was suppose
to continue to wait for the CORC to issue a decision on my grievance appeal, no matter
how long it took, before seeking judicial intervention. This holding and decision by.the
Third Dept, is in direct conflict with other federal caselaw.
The CORC "shall review each appeal and render a decision on the grievance... with­
in 30 days from the time the appeal is received." (7 NYCBR, § 701.5 [d] [3] [ii]). In
Hayes v. Dahlke the Second Circuit held, "Unlike the word 'may1, which implies discretion,
the word 'shall' usually connotes a requirement." Kingdomwar'e Techs., Inc. v.. United
States,

U.S.

, 136 S.Ct. 1969, 1977, 195 L.Ed.2d 334 (2016); see also Lexecon

Inc. v. Milberg Weiss Bershad & Lerach, 523 U.S. 26, 35, 118 S.Ct. 959 140 L.Ed.2d62 (1998)
(noting that the word "shall" is "mandatory" and "normally creates an obligation imper­
vious to judicial discretion"). (Hayes v. Dahlke, 976 F.3d 259,: 269 [2020]). The Hayes
court further held, "DOCCS regulations impose a 30 day deadline with no qualifications.
In fact, the regulations specifically prohibit prison officials from stalling the resolution of an inmate's grievance by ignoring the various deadline throughout the process.
Instead, to obtain an extension 'at any level of review
inmates consent. NYCRR tit. 7 § 710.6(g) (2).

the agency must obtain the

Absent such extension, matters not decided

within the time limits may be appealed to the next step;

Of course, after CORC review,

there is simply no 'next step' in the process - other than to file a lawsuit in court.”
('Hayes, 976 F.3d at 269).

6

y

REASONS FOR GRANTING THE PETITION

There is a square conflict among this court and the Second Circuit regarding the
question presented. That conflict is starkly illuminated by the contrast between the
Second Circuit's decision in Hayes v. Dahlke, 976 F.3d 259 (2020) and the decision below.
In addition, as the Second Circuit acknowledged, otehr courts of appeals also have re­
jected the Third Dept.'s approach. This unchecked mode of operation creates an intoler­
able conflict - and severe unfairness - that this court should resolve.

7

>!

r

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

L
Date:

January 3, 2021

8

